D-2008-079                  April 8, 2008




   Management of Incremental Funds on the
    Air Force Research, Development, Test
           and Evaluation Contracts
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.
  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:
                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACRN                  Accounting Classification Reference Number
ADA                   Antideficiency Act
AFB                   Air Force Base
AFI                   Air Force Instruction
APPA                  Advance Payment Pool Agreement
BVN                   Bureau Voucher Number
CLIN                  Contract Line Item Number
DCAA                  Defense Contract Audit Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
ESC                   Electronic Systems Center
FAO                   Field Auditing Office
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
IAPS                  Integrated Accounts Payable System
LOA                   Line of Accounting
MIT LL                Massachusetts Institute of Technology’s Lincoln Laboratory
MOCAS                 Mechanization of Contract Administration Services
OIG                   Office of Inspector General
RDT&E                 Research, Development, Test, and Evaluation
SAF/AQ                Assistant Secretary of the Air Force (Acquisition)
SAF/AQC               Deputy Assistant Secretary (Contracting), Office of the Assistant
                         Secretary of the Air Force (Acquisition)
SAF/FM                Assistant Secretary of the Air Force (Financial Management and
                         Comptroller)
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704


                                                                               April 8, 2008


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (ACQUISITION)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Management of Incremental Funds on Air Force Research,
         Development, Test, and Evaluation Contracts
         (RepOit No. D-2008-079)


      We are providing this report for review and comment. We considered comments
from management on a draft of this repOit when we prepared the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments from the Deputy Assistant Secretary of the Air Force (Acquisition), the
Assistant Secretaty of the Air Force (Financial Management and Comptroller), and the
Defense Finance and Accounting Service Columbus were partially responsive. We
request that the Assistant Secretary of the Air Force (Acquisition) provide comments on
Recommendations A1.c., A1.e.(I), A.1.e.(2), B.3.b., B.3.c., and B.3.d; the Assistant
Secretaty of the Air Force (Financial Matlagement and Comptroller) provide comments
on Recommendations A2.a. and A2.b.; and the Defense Finance and Accounting Service
provide comments on Recommendation B.2.b. by June 9, 2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We camlOt accept ilie / Signed /
symbol in place ofthe actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Amy Frontz at (303) 676-7392 (DSN 94-926-7392) or Ms. Priscilla Nelms at
(303) 676-7393 (DSN 94-926-7393). See Appendix E for the report distribution. The
team members are listed on the back page.



                                     'f~Q·m~
                                      Patricia A Marsh, CPA
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-079                                                       April 8, 2008
   (Project No. D2005-D000FD-0208.000)

           Management of Incremental Funds on Air Force Research,
                Development, Test, and Evaluation Contracts
                                  Executive Summary
Who Should Read This Report and Why? Air Force and Defense Finance and
Accounting Service (DFAS) personnel responsible for the management and financial
accounting of contracts should read this report. This report discusses the need to improve
the Air Force’s formation and management of incrementally funded Research,
Development, Test, and Evaluation (RDT&E) contracts and the need for improvement in
the procedures used by the DFAS personnel to pay vendor public vouchers submitted for
these contracts.

Background. A prior DoD Office of Inspector General Report No. D-2006-056,
“Vendor Pay Disbursement Cycle, Air Force General Fund: Contract Formation and
Funding,” March 6, 2006, identified material internal control deficiencies in the
formation and management of Air Force RDT&E contracts. Incorrect formation and
management of incrementally funded contracts can result in violations of the United
States Code, Federal Acquisition Regulations, Defense Federal Acquisition Regulations
Supplement, and other DoD regulations.

Results. The Air Force’s management of incrementally funded RDT&E contracts was
not effective to ensure that vendors were paid in accordance with laws and regulations.
Specifically, Air Force contracting personnel:

   •   allowed performance on contracts prior to availability of appropriations
       (finding A),

   •   did not record unfunded liabilities as required by the Statement of Federal
       Financial Accounting Standard No. 1, “Accounting for Selected Assets and
       Liabilities” (finding A),

   •   allowed the use of expired appropriations for inappropriate costs (finding A),

   •   allowed the use of appropriations other than RDT&E for RDT&E-related services
       (finding A),

   •   allowed the use of RDT&E appropriations in the second year of availability,
       although Air Force policy limits its usage (finding A), and

   •   issued contracts without payment instructions (finding B).

During the audit, Air Force contracting personnel partially agreed with our conclusions
and made corrections to some financial transactions.
We also identified problems in the methods used by DFAS personnel to pay for these
contracts. Specifically, DFAS personnel:

   •   disbursed expired appropriations without adequate verification (finding B),

   •   paid vouchers by spreading costs across all accounting classification reference
       numbers with available appropriations, known as proration (finding B), and

   •   did not detect errors in correction vouchers and credit vouchers due to poor
       implementation of internal controls (finding B).

See the Finding sections for the detailed recommendations.

The internal controls at both Air Force and DFAS were inadequate. We identified
material internal control weaknesses in Air Force contract administration. In addition,
we identified material internal control weaknesses in how DFAS personnel disbursed
appropriations.

Management Comments and Audit Response. For Finding A, the Deputy Assistant
Secretary for Contracting, Office of the Assistant Secretary of the Air Force
(Acquisition) (SAF/AQC) concurred with five of the recommendations, concurred with
the intent of one recommendation, and nonconcurred with one recommendation.
SAF/AQC nonconcurred with the recommendation to provide Air Force contracting
officers guidance on structuring severable multi-year contracts. He stated that the
recommendation would cause the Air Force to implement guidance that did not agree
with the Defense Federal Acquisition Regulation Supplement (DFARS). We did not
recommend that the guidance suggest uniform contract formation that would violate the
DFARS. Rather, the guidance should simply provide additional instructions on a
uniform contract structure beyond those required by the DFARS. SAF/AQC concurred
with the intent of the recommendation to conduct periodic reviews to determine whether
the contracting officers exercised their responsibility to protect the interests of the U.S.
Government by obtaining and monitoring contract disbursements. However, the
SAF/AQC comments were nonresponsive because SAF/AQC stated that the contracting
officers are not responsible for reviewing contract disbursements. The FAR and DFARS
clearly state that the contracting officer is responsible for the contract during all phases of
its existence. SAF/AQC concurred with the recommendation to conduct periodic reviews
to determine whether Air Force contracting officers properly obligated appropriations
other than RDT&E, but the comments were partially responsive because they did not
specifically state how the proposed solution will fix the condition noted in the finding.

The Assistant Secretary of the Air Force (Financial Management and Comptroller)
(SAF/FM) concurred with two of the recommendations and concurred with the intent of
one recommendation. SAF/FM concurred with the recommendation to conduct
preliminary Antideficiency Act investigations for five contracts, but did not provide the
results of the reviews in its comments.

For Finding B, the Director, Defense Procurement and Acquisition Policy, Office of the
Under Secretary of Defense (Acquisition, Technology, and Logistics) concurred with one
recommendation. We made minor changes to this recommendation based on comments
from the Director by making the recommendation applicable to all interim vouchers.

SAF/AQC concurred with three of the recommendations and nonconcurred with one
recommendation. SAF/AQC nonconcurred with the recommendation to perform periodic
reviews to determine whether Air Force contracting officers monitor contract

                                              ii
disbursements to ensure that the contractors and DFAS comply with the terms of the
contract. The DFARS clearly states that the contracting officer is responsible for the
contract during all phases of its existence. SAF/AQC concurred with the
recommendation regarding establishing guidance requesting close-out audits, but did not
specifically address the issue raised in the recommendation.

The Deputy Director, DFAS Columbus concurred with two recommendations and
nonconcurred with one recommendation, proposing an alternate solution. The Deputy
Director nonconcurred with the recommendation that DFAS provide the Assistant
Secretary of the Air Force (Acquisition) (SAF/AQ) copies of contract deficiency reports
and, instead, proposed that all contracting officers register with the Electronic Data
Access system so that they have access to the contract deficiency report module.
Because DFAS uses only the electronic form of contract deficiency reports, we accepted
the proposed alternative. The Deputy Director concurred with the recommendation to
discontinue proration as the default method for paying contracts that do not have
payment instructions; however, the comments were not responsive. The Deputy Director
stated that proration has not been used as the default method since 2000 for automated
payments and since 2003 for manual payments. During our audit, we identified contracts
for which proration had been used as the default method between December 2003 and
August 2004. In addition, DFAS Columbus Desk Procedure 401 states that proration is
the default method for contract payment when a contract has multiple lines of accounting
and no payment instructions.

We request that the SAF/AQ, SAF/FM, and DFAS Columbus reconsider their positions
and provide comments by May 8, 2008. See the Finding sections for a discussion of
management comments and the Management Comments section for the complete text of
the comments.




                                           iii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    1

Review of Internal Controls                                                   1

Findings
     A. Incremental Funding for Research, Development, Test, and Evaluation
        Contracts                                                             3

     B. Payments for Research, Development, Test, and Evaluation Contracts    17

Appendixes
     A. Scope and Methodology                                                 29
         Prior Coverage                                                       31
     B. Contract Line Item Numbers Reviewed                                   32
     C. Laws and Regulations                                                  37
     D. Other Matters of Interest                                             43
     E. Report Distribution                                                   44

Management Comments
     Under Secretary of Defense (Acquisition, Technology, and Logistics)      47
     Department of the Air Force (Acquisition)                                52
     Department of the Air Force (Financial Management and Comptroller)       57
     Defense Finance and Accounting Service Columbus                          60
Background
     DoD Office of Inspector General Report No. D-2006-056, “Vendor Pay
     Disbursement Cycle, Air Force General Fund: Contract Formation and Funding,”
     March 6, 2006, identified material internal control deficiencies in the formation
     and management of Air Force Research, Development, Test, and Evaluation
     (RDT&E) contracts. Specifically, Air Force contracting personnel:

        •   used appropriations that were not available when the services were
            provided and

        •   incorrectly formed severable services under contracts as nonseverable.

     Incorrect formation and management of incrementally funded contracts can result
     in violations of the United States Code, Federal Acquisition Regulation (FAR),
     Defense Federal Acquisition Regulation Supplement (DFARS), and other DoD
     regulations.


Objectives
     The overall objective was to evaluate the adequacy of the management of
     incremental funds on Air Force RDT&E contracts. Specifically, we evaluated:

        •   whether incrementally funded modifications for these contracts were
            obligated and managed in accordance with appropriation law and
            implementing regulations, and

        •   whether payments made under the contracts were charged to the
            appropriate funds.

     We also reviewed the management control program as it related to the overall
     objective.

     Appendix A contains a discussion of the scope and methodology, and prior audit
     coverage related to the objectives.


Review of Internal Controls
     We identified material internal control weaknesses for the Air Force and Defense
     Finance and Accounting Service (DFAS) as defined by DoD Directive 5010.38,
     “Management Control Program,” August 26, 1996, and DoD Instruction 5010.40,




                                         1
           “Management Control Program Procedures,” August 28, 1996.1 The Air Force
           had inadequate internal controls over the management of RDT&E contracts.
           DFAS had inadequate controls over contract disbursements. See findings A and
           B for a discussion of these weaknesses. Recommendations A.1., A.2.b., A.2.c,
           B.1., and B.2., if implemented, will correct the internal control weaknesses. A
           copy of the final report will be provided to the senior official responsible for
           internal controls in Air Force and DFAS.




1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.



                                                        2
           A. Incremental Funding for Research,
              Development, Test, and Evaluation
              Contracts
           The Air Force did not always obligate and manage incrementally funded
           contract line item numbers (CLINs) that used Air Force RDT&E
           appropriations in accordance with applicable laws and regulations.
           Specifically, RDT&E services valued at:

                •   $26.6 million were performed by contractors prior to the
                    availability of appropriations for those services,

                •   $6.4 million were charged to expired appropriations,

                •   $25.7 million were charged to appropriations other than RDT&E
                    without adequate justification, and

                •   $108.9 million were charged to appropriations in the second year
                    of funding availability.

           As a result, the Air Force potentially violated the Purpose Statute, the
           Bona Fide Needs Rule, and the Air Force budgetary policy regarding the
           use of RDT&E appropriations in the second year of availability.
           Furthermore, the Air Force potentially violated the Antideficiency Act
           (ADA).


Criteria for Incremental Funding of RDT&E Services
    Federal Acquisition Regulations. Because of uncertain outcomes of research
    and development activities, FAR 32.705-2, “Clauses for Limitation of Cost or
    Funds,” February 2000, allows DoD contracting officers to incrementally fund
    RDT&E contracts. This funding method enables the contracting officer to cease
    contractor efforts if the results of the work are not proving beneficial to the
    Government. When funding incrementally, contracting officers obligate portions
    of the total estimated cost of the services as the contract progresses rather than the
    total contract amount. The incremental funding clause in the contract notifies the
    contractor that the U.S. Government will reimburse expenses incurred up to the
    total amount obligated on the contract.

    DoD Budget Policy for RDT&E. RDT&E appropriations are usually 2-year
    appropriations that allow new obligations throughout the period. However, DoD
    Regulation 7000.14-R, “Financial Management Regulations (FMR),” volume 2A,
    chapter 1, paragraph 010214, “RDT&E-Incremental Programming and Budgeting
    Basis,” June 2004, requires incrementally funded RDT&E efforts to be budgeted
    on a fiscal year basis and only for work required in that fiscal year. The
    exceptions are circumstances that delay the start of RDT&E efforts from one
    budget period to the next. These circumstances can be legal, administrative, or



                                          3
           technical problems. If circumstances delay the start of work until the second year
           of appropriations availability, documented justification is required.

           Air Force Budget Policy for RDT&E. Air Force Instruction (AFI) 65-601,
           “Budget Guidance and Procedures,” March 3, 2005, implements the DoD budget
           policy for RDT&E contracts. The instruction limits the use of RDT&E
           appropriations in the second year to specific circumstances, such as cost growth,
           that do not involve a change to the scope or requirements that were a bona fide
           need of the appropriation year. The appropriation year is the first year of the 2-
           year appropriation period, not the second year.

           Appendix C contains a list of laws and regulations applicable to the management
           and use of appropriations for RDT&E contracts.


Contract Line Item Numbers Reviewed
           We obtained the universe from the Washington Headquarters Services Individual
           Contraction Action Form (DD350) database from July 1, 2003, to June 30, 2004.
           We statistically selected 350 contracting modifications and determined that
           305 contract modifications contained Air Force RDT&E appropriations. From
           the 305 contract modifications, we focused on the CLINs that the Air Force
           funded incrementally. We then:

                •   reviewed 365 CLINs that were associated with the 305 contract
                    modifications,

                •   evaluated the CLINs to determine whether they were severable or
                    nonseverable,2

                •   determined that 153 CLINs were severable and 212 CLINs were
                    nonseverable, and
                •   analyzed the severable CLINs.

           See Appendix A for details.


Services Performed Prior to Funding Availability
           Air Force contracting personnel allowed contractors to perform services valued at
           $26.6 million prior to the availability of funds for those services. As a result, the


2
    Severable service: A task that can be separated into components that independently meet a separate and
    ongoing need of the Government.
    Nonseverable service: A single undertaking or a task that is entire in nature and cannot be subdivided
    without losing its identity.



                                                            4
           Air Force potentially violated the ADA.3 According to the ADA, agencies may
           not spend or commit themselves to spend in advance of or in excess of
           appropriations or apportionments. These provisions help protect the Government
           from incurring inappropriate or unauthorized costs for goods and services.
           Section 1342, title 31, United States Code (31 U.S.C. 1342), does not allow U.S.
           Government employees to accept voluntary services except in certain
           emergencies.

           Contractors may perform services prior to funding at their own risk; however, the
           Government may not reimburse the contractors for their performance except in
           certain emergencies. The Government usually considers the services voluntary,
           and Government officials cannot authorize payment for the contractor’s voluntary
           performance. The Massachusetts Institute of Technology’s Lincoln Laboratory
           (MIT LL) contract is an example.

           MIT LL Contract F19628-00-C-0002.4 Air Force contracting personnel at the
           Electronic Systems Center (ESC), Hanscom Air Force Base (AFB) allowed the
           performance of $12.8 million of services prior to the obligation of funds for those
           services. The purpose of this contract was to provide personnel, facilities,
           services, and materials to accomplish research and development for the
           Government. ESC contracting personnel stated that it was not necessary for
           program funding to be obligated prior to performance of services for two reasons:

                        •    the Advance Payment Pool Agreement (APPA) between MIT LL
                             and the Air Force Office of Scientific Research authorized MIT LL
                             to receive advance payments for non-profit cost contracts for direct
                             materials, direct labor, and administrative and overhead expenses
                             allocable and allowable in the contract; and

                        •    program funding would be obligated at or near the time that
                             MIT LL submitted public vouchers for services performed.
                             Therefore, authorizing performance prior to the availability of
                             funds was not a problem.

           The Assistant Secretary of the Air Force (Financial Management and
           Comptroller) (SAF/FM), Financial Operations official who manages the APPA
           confirmed that the APPA does not authorize the performance of services prior to
           the availability of funds; it only establishes a pool of funds to pay incurred
           expenses for services performed after funding is available. MIT LL had to defer
           invoicing for 14 projects on 3 public vouchers valued at $2.5 million because
           funds had not been obligated at the time MIT LL submitted the vouchers. From


3
    The ADA is codified in a number of sections of title 31 of the United States Code [for example,
    31 U.S.C. 1341(a), 1342, 1349-1351, 1511(2), 1512-1519]. The purpose of these statutory provisions,
    known collectively as the ADA, is to enforce the Congress’s right to determine the purpose, time, and
    amount of expenditures made by the Federal Government.
4
    This contract is a Federal RDT&E contract that involves a number of Federal agencies and funding
    sources. The Air Force is the designated contracting officer and is responsible for oversight of the
    contract. MIT LL is a Federally Funded Research and Development Center. We initially selected 34
    Air Force RDT&E contract modifications for this contract; however, we focused our review on the 10
    with the most funding.



                                                      5
           July 2000 to June 2005, MIT LL deferred invoicing a total of $48.4 million5 for
           services incurred because sufficient funds were not available when it submitted
           the vouchers.

           Additionally, ESC personnel stated that they did not record the deferral charges in
           the financial systems or monitor the reimbursement for the deferred charges. ESC
           personnel further stated that when funds became available, MIT LL would take
           the charge out of the deferred portion and add it to the billing portion of the public
           voucher. ESC personnel explained that they allowed MIT LL to defer invoicing
           to avoid the disruption of work for lack of funds. However, the Air Force did not
           record an unfunded liability as required.

           According to the Statement of Federal Financial Accounting Standards No. 1,
           “Accounting for Selected Assets and Liabilities,” (1993), the Air Force is
           required to recognize liabilities on its accounts payable when incurred, regardless
           of whether or not appropriations are available. The Standard defines accounts
           payable as amounts owed by a Government agency for goods and services
           received from another entity or, in this case, a contractor. Compliance with the
           Standard helps ensure accountability within the Government and contributes to
           achieving accurate and reliable financial statements, thereby assisting the
           Government in assessing the efficiency and effectiveness of the management of
           its assets and liabilities. If the Air Force does not recognize deferred charges as
           Government liabilities, the Air Force cannot produce reliable financial statements.
           In addition, by allowing MIT LL to perform services prior to funding availability,
           the Air Force could violate the ADA.

           See Appendix B for a list of contracts for which Air Force contracting officers
           allowed contractors to perform services prior to funding availability.


Use of Expired Funds
           Air Force contracting personnel allowed the disbursement of $6.4 million against
           expired appropriations, violating section 1502(a), title 31, United States Code
           [31 U.S.C. 1502(a)], also known as the Bona Fide Needs Rule. Air Force
           contracting personnel:

               •    improperly funded a bona fide need for a subsequent year with current
                    year appropriations,

               •    did not monitor DFAS contract disbursing activities to ensure that DFAS
                    made payments from proper appropriations, and

               •    misinterpreted requirements related to contract formation.

           If an appropriation is expired, the appropriation is no longer available for new
           obligations. The Bona Fide Needs Rule limits appropriations expenses occurring
           during a specified period. Appropriations are available for adjustments within the
5
    This amount included the $2.5 million in the preceding sentence.



                                                           6
           scope of the original obligation, and disbursements are authorized for services
           rendered during the period of availability. Section 2410a, title 10, United States
           Code [10 U.S.C. 2410(a)], allows Government agencies to enter into contracts for
           the procurement of severable services that cross fiscal years. The law also allows
           obligating current appropriations for the total amount of the services acquired if
           the period of performance does not exceed 1 year.

           Although appropriation laws allow the use of expired appropriations in
           subsequent periods under certain circumstances, we found seven CLINs that did
           not meet these requirements. Two examples of CLINs that did not meet these
           requirements include the Tybrin Corporation and MIT LL contracts.

           Tybrin Corporation Contract F08635-02-C-0034. Air Force contracting
           personnel at Air Armament Center, Eglin AFB allowed $381,496.00 in payments
           for services rendered in subsequent years to be charged against expired
           appropriations. The purpose of this contract was to provide software engineering
           support. Eglin contracting personnel stated that exercising Option year 1 on
           September 29, 2003, made the period of performance September 29, 2003,
           through September 28, 2004; and that the use of FY 2003 appropriations was
           within scope of 10 U.S.C. 2410 (a). However, the contract itself established the
           period of performance for Option year 1 as October 1, 2003, through
           September 30, 2004 (FY 2004).

           Exercising Option year 1 on September 29, 2003, did not change the contractual
           performance period to make it qualify under the scope of 10 U.S.C. 2410(a), nor
           did it allow the use of FY 2003 appropriations for a FY 2004 contract.

           MIT LL Contract F19628-00-C-0002. ESC contracting personnel allowed
           $5.2 million for services to be charged against expired appropriations on the
           MIT LL contract. ESC contracting personnel improperly formed the contract as a
           nonseverable or single undertaking.6 The incorrect contract formation resulted in
           ESC contracting personnel paying for expenses in subsequent years with
           appropriations available in the prior year.

           ESC contracting personnel did not initially agree that services on this contract
           were severable even though there were more than 300 separate projects.
           However, in the discussion draft meeting, ESC personnel agreed that the
           individual projects in and of themselves were severable, but did not agree that an
           individual project was severable within itself. We believe the individual projects
           are severable and that ESC contracting personnel should budget for each project
           and then fund by fiscal period.


6
    The Government Accountability Office’s “Principles of Federal Appropriation Laws,” GAO-04-261SP,
    third edition, volume 1, January 2004, defines nonseverable service as “A contract that is viewed as
    “entire” is chargeable to the fiscal year in which it was made, not withstanding that performance may
    have extended into the following fiscal year. The determining factor for whether services are severable
    or entire is whether they represent a single undertaking.”
    DFARS Subpart 204.7101, “Uniform Contract Line Item Numbering System, Definitions,” November 9,
    1999, states, “ ‘Nonseverable deliverable,’ as used in this subpart means a deliverable item that is a single
    end product or undertaking, entire in nature, that cannot be feasibly subdivided into discrete elements or
    phases without losing its identity.”



                                                         7
           Appendix B contains a list of the contracts for which the Air Force used expired
           appropriations instead of current appropriations for services incurred in
           subsequent years.


Use of Non-RDT&E Appropriations
           Non-RDT&E appropriations include procurement, operation and maintenance,
           military construction, military personnel, and other appropriations. The Air Force
           obligated $25.7 million for RDT&E services using non-RDT&E appropriations.
           This practice may be acceptable under certain circumstances, with appropriate
           justification and documentation. However, the Air Force did not follow the
           correct procedures for the obligations. Air Force contracting personnel:

               •    relied on sponsoring agencies to interpret and apply appropriation
                    requirements and to make funding decisions,

               •    did not comply with the DFARS requirement for forming separate line
                    items for each requirement, and

               •    did not make proper funding determinations or prepare appropriate
                    justification documentation.

           Appropriation laws specify when the appropriations should be used, who may use
           them, and for what purpose. The DoD FMR, volume 2A, chapter 1, paragraph
           010213(B) requires DoD entities to pay for RDT&E functions with RDT&E
           appropriations. RDT&E functions include procurement of end items, weapons,
           equipment, components, and materials; and services required to develop
           equipment, materials, or computer application software. Furthermore, the
           Regulation states that when in doubt as to the proper assignment of costs between
           appropriations, RDT&E appropriations should be favored. In addition,
           Comptroller General Decisions7 have stated that agencies must use the most
           specific appropriation available to them, in this case, the RDT&E appropriation.
           One example of the use of non-RDT&E appropriations is the
           L-3 Communications Corporation contract.

           L-3 Communications Corporation Contract F41624-97-D-5000, Delivery
           Order 0017. Air Force contracting personnel at Brooks City Base obligated
           approximately $5.4 million of non-RDT&E appropriations consisting of
           Operation and Maintenance and Reserve Procurement appropriations for RDT&E
           services. The purpose of this contract was to provide training systems,
           technology evaluation, and effectiveness research. Air Force personnel stated that
           they co-mingled non-RDT&E appropriations with RDT&E appropriations on the
           same line item instead of establishing a separate line item for the non-RDT&E
           effort, as required by DFARS Subpart 204.7101, “Uniform Contract Line Item

7
    Comptroller General, B-289209, “Use of Oil Spill Liability Trust Fund for Administrative Costs of
    Processing Oil Pollution Act Claims,” May 31, 2002, states that the more specific appropriations must be
    used. Even when the more specific appropriation is exhausted, the more general appropriation cannot be
    used.



                                                           8
    Numbering System, Definitions,” November 9, 1999. We reviewed the
    requirements and determined that they were RDT&E in nature, and contracting
    personnel should have used RDT&E appropriations. As a result, the Air Force
    violated 31 U.S.C. 1301(a), generally referred to as the Purpose Statute.

    See Appendix B for a list of the contracts that used non-RDT&E appropriations
    for RDT&E work.


Second Year Use of Air Force RDT&E Appropriations
    There is confusion among Air Force contracting personnel concerning the use of
    RDT&E funds in the second year of availability. We identified $108.9 million of
    RDT&E appropriations that the Air Force used in the second year of funding
    availability without supporting the use of these funds in accordance with
    Air Force policy contained in AFI 65-601. For example, some Air Force
    contracting personnel indicated that RDT&E appropriations are 2-year funds and
    they did not have to limit the use of these funds in the second year. In other
    examples, they acknowledged that AFI 65-601 applied, but were unable to
    provide any documentation supporting the second year use of funds.

    The DoD FMR, volume 2A, chapter 1, paragraph 010214(A), “RDT&E
    Incremental Programming and Budgeting Basis, Purpose,” June 2004, requires
    RDT&E efforts to be budgeted separately in order to allow management to
    prioritize the use of appropriations by fiscal year, instead of reserving
    appropriations for future years. AFI 65-601, volume 1, chapter 13 “RDT&E
    Appropriation,” section 13.4.1, March 3, 2005, states:

           Limit reapplying of funds in the second year to cost growth within scope or to
           requirements which are a bona fide need of the appropriation year as defined by DFAS-
           DE Interim Guidance on Accounting for Obligations. Commands should identify funds
           above programmed requirements to be obligated in the first year to SAF/FMBIZ
           [Financial Management and Comptroller, Air Force Investments and Integration
           Division] and SAF/AQXR [Acquisition Program Integration Division], so the Air Force
           can reapply funds to other priority programs.

    According to Section 13.8, “Managing Uncommitted and Unobligated Balances
    in RDT&E,” Headquarters Air Force is allowed to withdraw uncommitted
    balances at the end of the first year of availability. Provisions for reprogramming
    funds are also included in this section. These requirements allow the Air Force to
    have greater control over appropriated RDT&E funds and reprogram the use of
    these funds more effectively. However, Section 13.8.4 states:
           The RDT&E appropriation is legally available for up to 2 years for
           new obligations and you may incur obligations at any time during the 2
           years, if the related action concerns an item authorized in the program
           authorization and budget authorization documents issued for the
           appropriation year.

    Some Air Force officials quoted this section to justify the use of RDT&E funds
    on a 2-year basis without the need to justify the appropriateness of using the funds


                                             9
    in the second year. This approach negates the attempts of the prior sections of the
    instruction to gain greater control over the use of funds in the second year.

    This section also states:
           However, due to its nature, PMA [Program Management
           Administration] should be budgeted on an annual basis and reflected in
           the fiscal year during which the requirement is projected to execute.

    In the examples we evaluated, the use of RDT&E funds in the second year does
    not appear to conform to the requirements of AFI 65.601, which limits the second
    year use of funds to cost growth within scope or to services that are a bona fide
    need of the appropriations year. The MIT LL contract is an example of the use of
    RDT&E funds in the second year of availability.

    MIT LL Contract F19628-00-C-0002. ESC contracting personnel allowed
    MIT LL to incur costs of $108.7 million for services in the second year of the
    RDT&E appropriation’s availability. These services do not appear to be cost
    growth within the scope of the first year or a bona fide need of the appropriations
    year (the first year of the funds). ESC contracting personnel said they did this
    because RDT&E is a 2-year appropriation.

    This confusion has resulted in differences in appropriated funds management
    between Air Force funds managers. The Air Force should observe consistency in
    its approach to ensure that all funds managers are implementing the instructions
    properly. An official in the Office of the Secretary of the Air Force, Financial
    Management and Comptroller, Air Force Investments and Integration Division
    told us that the office is reviewing AFI 65.601 to change the instruction and
    resolve the confusion within Chapter 13. The current plan is to eliminate the
    sections that restrict the use of RDT&E funds in the second year.

    See Appendix B for a listing of the contracts that appear to have used
    appropriations in the second year of availability contrary to Air Force policy in
    AFI 65.601.


Conclusion
    The Air Force did not consistently obligate and manage incremental funding for
    Air Force RDT&E contracts in accordance with appropriation laws and
    implementing regulations. Specifically, Air Force contracting personnel allowed:

       •   contractors to perform services prior to the availability of funds for those
           services, potentially violating the ADA;

       •   unfunded liabilities to be incurred without recording them as required by
           the Statement of Federal Financial Accounting Standard No. 1,

       •   disbursements against expired appropriations, violating the Bona Fide
           Needs Rule;


                                                10
       •   the use of non-RDT&E appropriations for RDT&E services, violating the
           Purpose Statute; and

       •   the incremental funding of services with RDT&E appropriations in the
           second year of the 2-year availability period, potentially violating
           AFI 65-601.

    Based on the responses received from Air Force contracting personnel, many of
    these potential violations of laws and regulations were due to a lack of familiarity
    with appropriation laws and implementing regulations and instructions.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Assistant Secretary of the Air Force
    (Acquisition):

           a. Establish procedures to prevent contractors from incurring costs
    prior to the availability of appropriations.

    Management Comments. The Deputy Assistant Secretary for Contracting,
    Office of the Assistant Secretary of the Air Force for Acquisition (SAF/AQC)
    concurred. He stated that the Assistant Secretary of the Air Force (Acquisition)
    (SAF/AQ) will issue guidance to ensure that contracting officers clearly
    understand the Government’s risk of liability should a contractor perform work
    during a period in which the contract is unfunded. The estimated completion date
    is January 15, 2008.

    Audit Response. Management comments are responsive to the intent of the
    recommendation.

            b. Provide contracting officers, contracting officer’s technical
    representatives, and others involved in the contract management process
    specific training on contracting requirements contained in the United States
    Code, Federal Acquisition Regulation, Defense Federal Acquisition
    Regulation Supplement, and Air Force policy.

    Management Comments. SAF/AQC concurred and stated that the Air Force has
    changed portions of the Contracting Core Certification Standards and the “Core
    Plus Development Guide for Fiscal Year 2008.” SAF/AQC does not anticipate
    making any more changes in training requirements.

    Audit Response. We reviewed the changes to the Contracting Core Certification
    Standards and the “Core Plus Development Guide for Fiscal Year 2008” and the
    comments from SAF/AQC are fully responsive.




                                         11
       c. Establish guidance to provide a uniform contract structure for
multi-year severable contracts.

Management Comments. SAF/AQC nonconcurred and stated that an alternate or
additional uniform contract structure would be inconsistent with the DFARS
Subpart 204.70. He also stated that a minority of RDT&E contracts are severable,
multi-year RDT&E contracts. SAF/AQC stated that incremental funding does not
imply that RDT&E contracts are formed as severable and each contract must be
evaluated on a case-by-case basis.

Audit Response. The comments from SAF/AQC are not responsive. We did not
recommend that the Air Force establish a uniform contract structure outside of the
structure specified in the DFARS Subpart 204.70. We recommended, instead,
that the Assistant Secretary of the Air Force for Acquisition provide guidance to
the Air Force contracting officers on how to structure multi-year, severable
contracts within the structure specified in DFARS Subpart 204.70.

The Finding did not state that incremental funding makes all incrementally funded
RDT&E contracts severable. We agree that the severability should be determined
on a case-by-case basis. Once the contracting officer determines that the contract
is severable, then the contracting officer should structure the Account
Classification Record Number (ACRNs) and CLINs so that everyone involved in
the disbursement process can easily and accurately determine when the funds are
expired and canceled.

To ensure consistency between Air Force contracting offices, we made this
recommendation to address situations in which various contracting officers
structured multi-year severable contracts differently. We request the Assistant
Secretary of the Air Force for Acquisition (SAF/AQ) reconsider his position and
provide additional comments in response to the final report.

       d. Establish separate contract line item numbers for separate
requirements in accordance with the Defense Federal Acquisition Regulation
Supplement Subpart 204.7103.

Management Comments. SAF/AQC concurred with the recommendation and
stated that it already issued a memorandum directing all contracting personnel to
complete a Defense Acquisition University course titled Contract Format and
Structure for DoD E-Business Environment. SAF/AQC also reported that the
Air Force had issued a policy memorandum directing all contracting officers to
form contract line items in accordance with the FAR Part 4 and provide vendors
with clear payment instructions that enable vendors to invoice correctly to meet
the terms of the contract.

Audit Response. We reviewed the memoranda identified in the response. The
comments from SAF/AQC are responsive to the intent of the recommendation.

       e. Establish periodic reviews of Research, Development, Test, and
Evaluation contracts to ensure that the contract formation, execution, and
closure comply with laws, regulation, and policy; and correct any
noncompliance. Specifically:


                                        12
               (1) Determine whether contracting officers exercised their
responsibility to protect the interests of the U.S. Government by obtaining
and monitoring contract disbursements in accordance with the Federal
Acquisition Regulation Part 1.602.

Management Comments. SAF/AQC concurred with the intent of the
recommendation. He stated that contracting officers are not responsible for
monitoring the financial execution of the contract. SAF/AQC, however, did agree
that contracting officers must ensure that sufficient funds are available for
obligation.

Audit Response. The comments from SAF/AQC are not responsive because
contracting officers are responsible for monitoring disbursements against
contracts. FAR subparts 1.602-1 and 1.602-2 describes the responsibilities of
contracting officers. It states:
       1.602-1 Authority.

       (a) Contracting officers have authority to enter into, administer, or
       terminate contracts and make related determinations and findings.
       Contracting officers may bind the Government only to the extent of the
       authority delegated to them. Contracting officers shall receive from the
       appointing authority (see 1.603-1) clear instructions in writing
       regarding the limits of their authority. Information on the limits of the
       contracting officers’ authority shall be readily available to the public
       and agency personnel.

       (b) No contract shall be entered into unless the contracting officer
       ensures that all requirements of law, executive orders, regulations, and
       all other applicable procedures, including clearances and approvals,
       have been met.

       1.602-2 Responsibilities.

       Contracting officers are responsible for ensuring performance of all
       necessary actions for effective contracting, ensuring compliance with
       the terms of the contract, and safeguarding the interests of the United
       States in its contractual relationships. In order to perform these
       responsibilities, contracting officers should be allowed wide latitude to
       exercise business judgment. Contracting officers shall—

       (a) Ensure that the requirements of 1.602-1(b) have been met, and that
       sufficient funds are available for obligation; (b) Ensure that contractors
       receive impartial, fair, and equitable treatment; and (c) Request and
       consider the advice of specialists in audit, law, engineering,
       information security, transportation, and other fields, as appropriate.

Subparts 1.602-1 and 1.602-2 clearly state that the contracting officer is
responsible for the overall management of the contract and safeguarding the
interests of the United States Government during all phases of the contract,
including execution and closeout. In addition, if additional incremental funds are
placed on the contract, FAR Subpart 5.031 states that only the contracting officer


                                          13
can amend the contract to reflect the addition of funds. This occurs during the
execution phase of the contract and is usually when RDT&E contracts are
incrementally funded.

Also, the DCMA manual for close-out processes states that the administrative
contracting officer can remove excess funds as part of the administrative closeout
of the contract, but:
       excess funds does not include ‘remaining’ funds due to price variance,
       rounding or cost underrun funding as the ACO does not interface with
       the official accounting records. These are handled under the Q-Final
       process in MOCAS [Mechanization of Contract Administrative
       Services] and final disposition of these funds is a PCO [Procurement
       Contracting Officer] function at final closeout.

Therefore, only the procurement contracting officer can remove these funds from
contracts going through the closeout process.

We request that SAF/AQ reconsider his position on the responsibility of
contracting officers and provide comments in response to the final report.

              (2) Determine whether the contracting officers properly
obligated appropriations other than Research, Development, Test, and
Evaluation in a Research, Development, Test, and Evaluation contract.

Management Comments. SAF/AQC concurred and stated that the Air Force had
taken steps to ensure that contracting officers properly obligate funds other than
RDT&E in a RDT&E contract in both the pre-award and post-award phase. The
SAF/AQC stated that the Air Force has already implemented these procedures
and the action is complete.

Audit Response. The comments are partially responsive. They do not address
the specific condition in the Finding. The non-RDT&E funds were added after
the award of the contract. In addition, the use of the unit compliance inspection
checklists did not identify the improper use of non-RDT&E funds. As DoD
continues to implement policies that encourage the Services to work together in
military operations and programs, the use of multiple sources of funds on
contracts will increase. We request that SAF/AQ reconsider his position and
initiate further steps to strengthen controls over contracts funded by different
appropriations.

              (3) Determine whether the contracting officers correctly
obligated Research, Development, Test, and Evaluation Air Force
appropriations in the second year of availability in accordance with
Air Force Instruction 65-601.

Management Comments. SAF/AQC concurred and stated that the Air Force has
already implemented additional procedures to ensure that contracting officers
properly obligate Air Force RDT&E appropriations in the second year of
availability.



                                            14
He listed the procedures as:

               1. financial management oversight,

               2. procuring officer and negotiator training,

               3. higher level reviews within the contracting chain, and

               4. legal reviews.

In addition, SAF/AQ stated that each buying office is conducting the annual
self-inspection in accordance with the Air Force Materiel Command, Directorate
of Contracting, Policy Memorandum, “Minimum Standards for Self-Inspection
and Post-Award Reviews,” May 2, 2005. SAF/AQC stated that the Air Force has
already implemented these procedures and the action is complete.

Audit Response. Management comments are responsive to the recommendation.
However, the samples we reviewed occurred before June 30, 2005. We cannot
judge the effectiveness of this memorandum in ensuring compliance. An audit
would have to be performed to determine whether implementation of the self-
inspection checklist has improved Air Force contracting officers obligating
RDT&E funds correctly in the second year of availability.

A.2. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller):

      a. Conduct preliminary Antideficiency Act investigations and
implement proper corrections for the following contracts:

       (1) F08635-02-C-0034

       (2) F19628-00-C-0002

       (3) F04701-01-F-7014

       (4) F41624-97-D-5000, delivery order 0017

       (5) F33615-97-D-5403

Management Comments. SAF/FM concurred with the intent of the
recommendation and stated that he is directing each financial office to research
each issue raised by the report to determine whether a preliminary Antideficiency
Act review is necessary.

Audit Response. The comments are partially responsive. SAF/FM should not
consider the recommendation closed until the financial offices complete the
reviews. We request that SAF/FM provide the results of the reviews in response
to the final report.

      b. Establish procedures to track and record deferral charges as
unfunded liabilities for accounts payable, as required by Statement of
Federal Financial Accounting Standard No. 1.


                                    15
Management Comments. SAF/FM concurred with the intent of the
recommendation and stated that he will not allow the continuation of the deferred
billing changes under the Advance Payment Pool Agreement. He also stated that
SAF/FM personnel will meet with personnel from the Electronics System Center
and MIT LL to discuss the proper posting of invoices and procedures for future
payments under the Advance Payment Pool Agreement in accordance with
DFARS 232.470. SAF/FM personnel are to report on the status of the meeting
with corrective actions no later than November 30, 2007.

Audit Response. The comments are responsive. We request SAF/FM provide the
results of the corrective actions in response to the final report.

       c. Review the requirements of Air Force Instruction 65.601,
chapter 13, to clarify the use of Research, Development, Test, and Evaluation
funds in the second year and train resource managers on the proper
application of this instruction in the use of Research, Development, Test, and
Evaluation appropriations in the second year.

Management Comments. SAF/FM concurred with the intent of the
recommendation and stated that the Air Force periodically reviews guidance for
clarity. He stated that Air Force Instruction 65.601, chapter 13, is part of the
current review. SAF/FM did not provide a schedule of completion.

Audit Response. Management comments are responsive to the intent of the
recommendation.




                                       16
           B. Payments for Research, Development,
              Test, and Evaluation Contracts
           DFAS did not ensure that DFAS personnel consistently charged payments
           for incrementally funded RDT&E contracts to the correct appropriations.
           Specifically, personnel at DFAS Columbus and DFAS Dayton:

               •   disbursed expired appropriations without verifying whether the use
                   of those appropriations was applicable,

               •   prorated disbursements against all available appropriations when
                   contracts did not include payment instructions,

               •   improperly corrected errors in previous payments,

               •   did not distribute vendor credits to proper lines of accounting, and

               •   disbursed against incorrect lines of accounting.

           Additionally, the Air Force did not include payment instructions in
           RDT&E contract documents. As a result, the Air Force potentially
           violated the Bona Fide Needs Rule and Purpose Statute. In addition, the
           Air Force potentially violated the ADA. During the audit, Air Force
           personnel agreed with some of our conclusions and made corrections to
           some financial transactions.


Criteria for Disbursing Government Appropriations
    Numerous laws and implementing regulations address the disbursement of
    Government appropriations by Government agencies. See Appendix C for the
    guidance related to this finding.


Controls Over Disbursements of Interim Vouchers
    DFAS personnel inappropriately disbursed approximately $1.2 million of expired
    appropriations for contractor services under six CLINs. The use of expired
    appropriations occurred because DFAS personnel did not determine whether the
    appropriations were proper for disbursing officers as stated in section 3325 (a),
    title 31, United States Code [31 U.S.C. 3325 (a)] and section 3528 (a), title 31,
    United States Code [31 U.S.C. 3528 (a)].




                                        17
Section 3325 (a) requires disbursing officers to:

   •   disburse funds based on a certified voucher;

   •   examine vouchers as needed to determine if they are proper, certified, and
       computed correctly; and

   •   be held accountable for carrying out these duties.

Section 3528 (a) requires certifying officers to certify:

   •   the factual accuracy of vouchers,

   •   the accuracy of computations on vouchers, and

   •   the legality of proposed payments under the appropriations or funds
       involved.

DFAS management implemented these laws by issuing Policy No. 03-CP-03,
“Certifying Officer Legislation Instruction for Commercial Pay Business Line,”
December 15, 2003, and Policy No. 03-CP-01, “Direct Submission of Cost
Reimbursement Type Interim Vouchers,” March 12, 2004. These policies require
DFAS certifying officers to validate vouchers prior to making payments.
However, the process listed in Policy 03-CP-03, attachment 6, for validating the
voucher is insufficient because it does not require the certifying officer to certify
the legality of the appropriations involved. As an alternative, DFAS personnel
rely on the Mechanization of Contract Administrative Services system (MOCAS)
notifications and the Defense Contract Audit Agency (DCAA) contractor reviews
to make these determinations for them. One example of DFAS disbursing expired
appropriations is the ARINC, Inc. contract.

ARINC Inc. Contract F04701-01-F-7014. The purpose of this contract was to
provide research and development support for the NAVSTAR Global Positioning
System Joint Program Office. DFAS personnel paid $625,076 in expired
appropriations for contractor services because DFAS personnel did not
verify whether appropriations were available for the period of performance and
purpose indicated on the voucher. The use of expired appropriations is limited to
adjustments, not additional work. The MOCAS system notifies DFAS personnel
when appropriations are available for disbursement, including expired
appropriations. Because DFAS personnel did not compare the period of
performance to the availability period for the appropriations, they disbursed
expired appropriations incorrectly.

DFAS personnel stated that they relied on DCAA contract reviews as certification
that the use of specific appropriations was appropriate. Thus, DFAS personnel
verified only that funds were available to cover the amount of the voucher, not
whether those funds were appropriate for paying the voucher. DFAS policy states
that the implementation of the Direct Billing Program made DFAS the certifying
officer for interim vouchers, while DFARS Subpart 242.803 states the
administrative contracting officer for the individual contract is the certifying
officer for final vouchers.


                                         18
Disbursing expired appropriations for services incurred beyond the period of
availability is a violation of the Bona Fide Needs Rule (31 U.S.C. 1502) and a
potential violation of the ADA.

See Appendix B for a listing of the contracts for which DFAS personnel disbursed
expired appropriations.

FAR and DFARS Guidance. For cost-reimbursement contracts and time,
material, and labor contracts that use FAR clause 52.216-7, “Allowable Cost and
Payment,” December 2002, contractors submit interim vouchers to the
Government for reimbursement of incurred costs. After contractors finish all
work for a contract, they submit a final voucher for payment of any remaining
costs not previously reimbursed.

The DFARS treats controls over payments for interim vouchers and final
vouchers differently. DFARS Subpart 242.803 “Disallowance of Costs,”
November 9, 2005, states that the contractor auditor (DCAA) is the representative
of the contracting officer for approving interim vouchers for provisional payment
and for sending the interim vouchers to the payment office. DCAA can authorize
a contractor to submit interim vouchers directly to a disbursing office if the
contractor has an approved billing system. DCAA is to review completion/final
vouchers and send these to the administrative contracting officer. Additionally,
this subpart requires the administrative contracting officer to approve
completion/final invoices and send them to the disbursing office.

However, paragraph 6-1003 (f) of the DCAA Contract Audit Manual describes
the purpose of DCAA’s reviews of interim vouchers. It states that reviews of
interim vouchers are to provide reasonable assurance that the amounts claimed
are not in excess of that which is properly due the contractor. The DCAA
Contract Audit Manual also states that the intent is not for DCAA to individually
audit these vouchers.

Direct Bill Program. DCAA approved all interim vouchers before they went to
the disbursing officer prior to the implementation of the Direct Bill Program. The
change in process increased DFAS responsibilities because DCAA no longer
approves all interim vouchers before they are submitted to the certifying officer.
Instead, as noted above, DCAA performs limited reviews of interim vouchers as
part of its surveillance of contractors.

When DCAA approves a contractor’s participation in the Direct Bill Program,
DCAA is required to do periodic audits. Paragraph 6-1007.6 “Contractor
Continued Participation in the Direct Billing Program,” section (a) January 2005,
of the DCAA Contract Audit Manual states that Field Auditing Offices (FAOs)
should review internal system controls for major contractors’ billing systems
based on a documented risk assessment. For nonmajor contractors, DCAA
reviews the contractor’s billing system internal controls as part of an annual,
incurred-cost audit.

Paragraph 6-1007.6, section (b) requires FAOs to perform annual testing of paid
vouchers on a sample basis to determine whether the Government can continue to
rely on the contractors’ internal controls for voucher preparation. FAOs are not
required to test paid vouchers annually for all nonmajor contractors, but may


                                    19
           select and review a sample of paid vouchers from the group of nonmajor
           contractors.

           In October 2001, the Under Secretary of Defense (Acquisition, Technology, and
           Logistics) issued a memorandum stating that DoD Components were to stop
           requiring contractors to submit detailed cost information as part of the billing
           process. The memorandum states that the information is not needed, and DoD
           Components and contracting officer representatives are performing tasks that are
           the responsibility of DCAA. This memorandum does not take into consideration
           that DCAA does not audit interim vouchers submitted through the Direct Bill
           Program, except for those samples selected during periodic audits.

           Auditing all interim cost vouchers is not a required part of DCAA’s Direct Bill
           Program contract surveillance. Additionally, based on the memorandum issued in
           October 2001, detailed cost information is not required on the interim vouchers.
           Therefore, as a certifying officer, DFAS personnel cannot rely on DCAA to
           ensure interim vouchers are correct, or on the information in the interim vouchers
           to ensure proper disbursements.

           DCAA does contract close-out audits8 at the request of the contracting activity.
           Without close-out audits, there is little assurance that all of the charges made
           through direct billing have been adequately supported, especially in complex
           contracts involving significant dollar amounts.

           DCAA Audits of MIT LL Contracts. The Air Force awards the RDT&E
           contracts with MIT LL in 5-year increments. The current contract FA8721-05-C-
           0002, dated April 1, 2005, is estimated to cost $3.3 billion. The period covered is
           April 1, 2005, to March 31, 2010. This contract also contains an option period of
           April 1, 2010, to March 31, 2015, at an estimated cost of $3.7 billion. DCAA has
           authorized MIT LL for direct billing.

           The DCAA Resident Office located at MIT LL conducts limited reviews of two
           vouchers per year for the current contract in addition to the system reviews.
           These reviews are usually for the May and November vouchers. However,
           according to DCAA personnel, ESC has not requested DCAA do a close-out audit
           of the MIT LL contracts since DCAA completed the 1985, 5-year contract close-
           out, approximately 17 years ago.

           This contract is complex as it involves more than 300 projects and multiple
           funding sources. Close-out audits would provide additional assurance that the
           amounts charged by the contractor were fully supported and that they have been
           paid from the correct funding sources because of:
               •    the limited amount of information that the contractor is required to submit
                    on the direct bill vouchers,
               •    the limited auditing of interim vouchers, and
               •    the significant dollar amounts involved in this contract.

8
    The DCAA Contract Audit Manual refers to contract-close-out audits as contract audit closing statement
    reports.



                                                          20
Contract Payment Instructions
           We identified 15 Air Force RDT&E contracts that did not include payment
           instructions when awarded. According to DFAS personnel, the Air Force
           awarded numerous contracts without payment instructions. DFAS personnel
           stated that they have been issuing Contract Deficiency Reports to Air Force
           contracting personnel since October 11, 2005. However, DFAS personnel stated
           they if the contracting officer does not provide payment instructions, they follow
           DFAS Desk Procedure 401 (the Procedure).

           The Procedure states that for contracts without payment instructions, payments
           should be prorated against all accounting classification reference numbers
           (ACRNs)9 with available appropriations regardless of the CLIN. The Procedure
           does not take into consideration that each CLIN has its own specific work
           requirements and cost estimates, and each ACRN may be funded with a different
           appropriation. DFARS PGI Subpart 204.7108(d)(11) allows prorating as an
           approved disbursing method if the contracting officer approves its use. DFAS
           personnel’s decision to use alternative disbursing methods without the approval of
           contracting officers could violate the ADA and the Purpose Statute.

           DFAS personnel used incorrect appropriations for disbursement when they
           applied the Procedure. DFAS personnel disbursed from ACRNs with available
           appropriations, rather than the ACRNs established for the purposes or services
           billed. The Tybrin Corporation contract is an example.

           Tybrin Corporation Contract F08635-02-C-0034. The purpose of this contract
           was to provide software engineering support. DFAS personnel used incorrect
           appropriations on the following disbursements associated with contract F08635-
           02-C-0034.

               •    Bureau voucher number (BVN) 27: On October 24, 2003, the Air Force
                    obligated $1,142,194 for the award fee using FY 2003 RDT&E
                    appropriations. On October 31, 2003, Tybrin invoiced $1,142,194 for
                    award fees for FY 2003 work. DFAS personnel disbursed only $183,557
                    of the invoice total from FY 2003 RDT&E appropriations. They paid the
                    remaining $985,637 of the award fee from FY 2004 appropriations.
                    FY 2004 appropriations were not available when the contractor performed
                    the work in FY 2003. DFAS personnel said that this occurred because the
                    contract did not contain payment instructions.

               •    BVN 38: The prorating between ACRNs for BVN 27 left an unliquidated
                    portion of the FY 2003 award fee. On April 16, 2004, DFAS personnel
                    used the unliquidated appropriations intended for the FY 2003 award fees
                    to pay for FY 2004 RDT&E work. DFAS personnel stated that they
                    employed the prorating method by allocating costs against all available
                    ACRNs because the contract did not contain payment instructions. The
                    unliquidated portion of the award fee was available because the award fee
                    payment for BVN 27 did not fully liquidate the amount set aside for award

9
    An ACRN is an alphanumeric code that represents a specific appropriation or line of accounting.



                                                     21
           fees for FY 2003. DFAS disbursed the unliquidated portion for FY 2004
           RDT&E work.

    The use of the prorating method violated the Bona Fide Needs Rule, Purpose
    Statute, and the Air Force’s budget policy for use of RDT&E appropriations in
    the second year of availability.

    The Air Force needs to have procedures in place to ensure that payment clauses
    are included when awarding a contract and to track contracts that DFAS
    personnel have identified as having missing payment instructions. Appendix B
    contains a list of the contracts that did not have payment instructions.


Internal Controls over MIT LL Vendor Payments
    DFAS Dayton personnel did not have controls in place to ensure that they made
    vendor payments for MIT LL Contract F19628-00-C-0002 from the correct
    appropriations. Our review of 60 payments for 36 projects involving 10 contract
    modifications showed that DFAS personnel:

       •   improperly corrected errors made in prior payments,

       •   did not distribute vendor credits to the proper lines of accounting, and

       •   disbursed against incorrect lines of accounting.

    DFAS personnel were unable to explain how the errors occurred. These errors
    violated the Bona Fide Needs Rule and potentially violated the ADA.

    Adjustments to Prior Payments. DFAS Dayton personnel improperly corrected
    $359,207 in errors made in previous payments because internal controls did not
    detect the improper adjustments. In FY 2002, DFAS personnel erroneously
    disbursed against incorrect lines of accounting (LOA). DFAS personnel
    attempted to correct the erroneous payments in FY 2005, but did not use the
    correct LOA. Specifically, DFAS personnel:

       •   incorrectly paid $192,792 for project 311 from project 292’s LOA
           5723400. On April 5, 2005, DFAS personnel attempted to correct the
           error by returning funds to project 292 and charging project 311.
           However, DFAS personnel returned the funds to LOA 5733400, rather
           than 5723400, and incorrectly charged the funds against LOA 5743400,
           which was not available for disbursement when the contractor performed
           the services.

       •   incorrectly paid $166,415 from project 10011’s LOA 5723600 instead of
           from project 10010’s LOA. On April 25, 2005, DFAS personnel
           attempted to correct the error by returning funds to project 10011 and
           charging project 10010. However, the charge to project 10010 was
           against LOA 5743600, which was not available for disbursement when the
           contractor performed the services.


                                            22
               The incorrect adjustments occurred because DFAS did not have effective
               controls to detect these errors. Both of these errors violated the Bona Fide
               Needs Rule and potentially violated the ADA. Specifically, incorrect
               adjustments could cause:

                    •   an unauthorized augmentation by returning $192,792 to LOA 5733400
                        for project 292, instead of LOA 5723400, and

                    •   a violation of the ADA’s Time Statute (31 U.S.C. 1552) by reducing
                        LOA 5743400 by $192,792 and LOA 5743600 by $166,415 as they
                        were not available for disbursement during August and February 2002,
                        respectively when the contractor performed the services.

           ESC personnel were not aware of the potential violations until we brought the
           issue to their attention. They agreed with our conclusions and made the proper
           corrections in FY 2007. Consequently, the Air Force lost the use of the credits to
           the FY 2004 appropriations because the appropriations had already expired.

           Application of Vendor Credits.10 DFAS Dayton personnel applied a vendor
           credit to an incorrect LOA, potentially augmenting appropriations without
           Congressional authorization. DFAS Dayton personnel should have applied
           vendor credits to the LOA from which they made the excess payments. DFAS
           management is responsible for establishing adequate internal controls to ensure
           that DFAS personnel properly allocate vendor credits to the appropriate projects
           and LOAs. For example, in February 2002, the Air Force received a vendor
           credit of $7,876 for project 327, resulting from prior excess payments. In July
           2002, DFAS personnel applied the vendor credit to a FY 2002 RDT&E LOA
           (5723600). This LOA was not obligated on this project until May 2002;
           therefore, it was not available when DFAS Dayton personnel made the original
           excess payment. ESC and DFAS personnel were unable to explain what caused
           the improper vendor credit. However, they concurred with our conclusion and
           made the proper correction.

           Disbursements Against Lines of Accounting. DFAS Dayton personnel
           disbursed $1.91 million against incorrect LOAs because they did not follow the
           payment instructions specified on the public vouchers. In addition, they did not
           follow the prevalidation process required by DFAS Instruction 7000.7-I. The
           instruction requires all personnel managing DoD appropriations to conduct a
           prevalidation and receive a positive response from applicable accounting offices
           prior to making payments. ESC contracting personnel provided a spreadsheet to
           DFAS personnel identifying payments by LOA. In a number of cases, however,
           DFAS personnel did not disburse according to the spreadsheet. Specifically,
           DFAS personnel disbursed:

                    •   $100,000 against LOA 5703600 instead of 5713600 as specified on the
                        spreadsheet, even though there were no funds available under LOA
                        5703600. DFAS personnel used LOA 5703600 for disbursement
                        under public voucher AV014 for project 1006. They were unable to


10
     Vendor credits are repayments from vendors for prior excess payments.



                                                     23
               explain how they over liquidated the obligation for LOA 5703600
               under project 1006. DFAS personnel corrected the error.

           •   $1.36 million against Navy RDT&E appropriations instead of Air
               Force RDT&E appropriations as specified on the spreadsheet provided
               by ESC for project 1228. DFAS personnel corrected the error.

           •   $450,000 against the FY 2003 LOA for services that occurred in
               FY 2002 instead of the FY 2002 LOA as specified on the public
               voucher for project 370. The FY 2003 appropriation was not available
               in FY 2002 when the contractor performed the work. Hanscom and
               DFAS personnel were not aware of the error, but made appropriate
               corrections when we brought it to their attention. They could not
               explain why they charged the work to the incorrect LOA.

    If DFAS personnel had conducted the prevalidations for the examples noted, they
    would have avoided using incorrect LOAs.

    The situation identified is not unique. In DoD Inspector General Report No.
    D2007-065, “Control Over the Prevalidation of DoD Commercial Payments,”
    March 2, 2007, the DoD Office of Inspector General (OIG) identified similar
    problems. The report stated that DFAS managers permitted disbursement of
    vendor payments without ensuring that technicians had properly prevalidated all
    commercial payment requests. This occurred because DFAS field sites, including
    Dayton, implemented local procedures that contradicted the DoD prevalidation
    policy for vendor payments. In addition, the DoD OIG determined that DFAS
    Dayton management had established procedures allowing technicians to process
    payments before receiving a positive acknowledgement that an obligation
    matching the payment request existed. The report further stated that allowing the
    disbursement of appropriations prior to receiving a positive response could violate
    public laws, increase the risk of making erroneous payments, and cause additional
    costs to make corrections.

    The DFAS Deputy Director for Standards and Compliance generally concurred
    with the findings and recommendations made in the report and agreed to make the
    necessary corrections. Based on this concurrence, we do not plan to make
    additional recommendations regarding prevalidation.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of a discussion with management, we
    clarified Recommendation B.1. to apply to all interim vouchers, not just those that
    pass through the Direct Bill Program.

    B.1. We recommend that the Under Secretary of Defense (Acquisition,
    Technology, and Logistics) implement procedures requiring that the
    certifying officer for interim vouchers receive the needed information to



                                            24
ensure that all disbursements meet fiscal law requirements, including the
Bona Fide Needs Rule and Purpose Statute.

Management Comments. The Director, Defense Procurement and Acquisition
Policy concurred and added that he had already implemented the recommendation
in 2005 with the publication of DFARS Procedures, Guidance, and Information
204.7107 and 204.7108.

Audit Response. The comments are responsive. However, the samples we
reviewed occurred before June 30, 2005. An audit would have to be performed to
determine whether implementation of DFARS Procedures, Guidance, and
Information 204.7107 and 204.7108 has improved the quality of information
received by the certifying officer for interim vouchers in order to ensure that
disbursements meet fiscal law requirements. We accept the Director’s response
until another audit can be done.

B.2. We recommend that the Director, Defense Finance and Accounting
Services, Columbus:

      a. Give the Office of the Assistant Secretary of the Air Force
(Acquisition) a copy of the contract deficiency report so that they can track
and correct errors quickly.

Management Comments. The Deputy Director, DFAS Columbus nonconcurred
and stated that the contract deficiency report application in Electronic Data
Access did not contain a report function. He added that a report function was
under development, pending funding. As an alternative, he suggested that the
procurement contracting officers be required to register for the Electronic Data
Access application so that they can receive notifications of contract deficiency
reports that are more accurate and receive reminders of contract deficiency
reports that require their action.

Audit Response. Although management nonconcurred with the recommendation,
the proposed action satisfies the intent of the recommendation because DFAS
Columbus places contract deficiency reports only in Electronic Data Access.
DFAS Columbus should continue to work with SAF/AQ to resolve issues with
procurement contracting officers who are making repeated errors on contracts and
other procurement contracting officers who are not currently correcting errors in
contract deficiency reports.

       b. Discontinue using the prorating method as the default method for
disbursing appropriations when contracts do not have payment instructions.
Instead, consult with the contracting officers to obtain payment instructions
on contracts that do not have payment instructions before making a
disbursement.

Management Comments. The Deputy Director, DFAS Columbus concurred and
agreed that the proration method of liquidating payments should not be used as
the default method when a contract does not contain payment instructions.
However, he disagreed with the finding that the proration method has recently
been used. He stated that since February 2000, MOCAS has not used proration as
the default payment method on automatic payments and since May 2003,


                                   25
MOCAS has not used proration as the default method on manual payments. The
Deputy Director added that current invoices without payment instructions are
coded as a contract discrepancy report (DD-1716) and held until the contracting
officer adds the required payment instructions to the contract.

Audit Response. The comments from DFAS Columbus are nonresponsive.
Proration is the default method for liquidating payments when a contract has
multiple lines of accounting and does not contain payment instructions according
to chapter 12 of Desk Procedure 401. DFAS Columbus has not been able to
provide written documents that overrule Desk Procedure 401. They also have not
provided us written documentation that states that current invoices without
payment instructions are to be held and coded as contract deficiency report (DD-
1716) until the contracting officer provides the payment instructions.

During the audit, we identified vouchers that used proration as the default method
when the contract does not have contract payment instructions. On December 26,
2006, DFAS Columbus stated that it prorated Public Vouches BVN0037,
BVN0038, BVN0039, BVN0040, and BVN0041 on contract F08635-02-C-0004.
These public vouchers are dated between April 2, 2004, and May 28, 2004. On
December 15, 2006, DFAS Columbus personnel stated that it prorated public
vouchers on BVN0004, BVN0017, BVN0018, and BVN0021 on contract
F04701-03-F-7043. These public vouchers are dated between December 12,
2003, and August 8, 2004.

We request that DFAS Columbus provide written documentation that shows that
proration is no longer a default method and the procedures that DFAS personnel
follow when an invoice does not include payment instructions in response to the
final report.

       c. Improve quality control procedures to prevent incorrect
adjustments to contract payments and incorrect distribution of vendor
credits.

Management Comments. The Deputy Director, DFAS Columbus concurred and
stated that DFAS Columbus will develop new procedures to prevent incorrect
adjustments to contract payments and incorrect distribution of vendor credits. In
addition, DFAS Columbus will review current guidance for the Integrated
Accounts Payable System and the new guidance for the Database Expansion and
Restructuring Release for Integrated Accounts Payable System. Estimated
completion date is December 1, 2008.

Audit Response. Management comments are responsive to the intent of the
recommendation.




                                        26
B.3. We recommend that the Assistant Secretary of the Air Force
(Acquisition):

        a. Establish quality control procedures to confirm that contracting
officers include payment instructions in every contract.

Management Comments. SAF/AQC concurred and stated that on February 26,
2007, it issued additional guidance on contract payment instructions. He also
stated that the Air Contracting Compliance Inspection Checklist, a quality
assurance document under development, will include an item on including in each
contract payment instructions to the disbursing office. The SAF/AQC estimates
that the new checklist will be issued on January 31, 2008.

Audit Response. Management comments are responsive to the intent of the
recommendation.

      b. Establish procedures to track and correct items in the Defense
Finance and Accounting Service contract deficiency report.

Management Comments. SAF/AQC concurred with the recommendation and
stated that the contract deficiency report is currently deployed in the field, but the
tracking portion still needs to be funded and developed. He also noted that
contracting officers did not traditionally have accounts in the Electronic Data
Access, the application that houses the module for the contract deficiency report.

Audit Response. Management’s comments are partially responsive. DFAS uses
the contract deficiency report module in the Electronic Data Application module
as the primary method to communicate the issues with the contracts to the
acquisition community, as DFAS no longer produces hardcopies of the contract
deficiency report (Form DD 1716). A contracting officer must have access to
Electronic Data Access to receive contract deficiency reports from DFAS. If
SAF/AQ does not require contracting officers to register in Electronic Data
Access, they will not be registered. Therefore, SAF/AQ needs to require that
contracting officers register in Electronic Data Access. For example, on
March 31, 2006, DCMA required all of its administrative contracting officers to
obtain access to Electronic Data Access.

Oversight of the contracting process is an important task for SAF/AQ. If the
SAF/AQ personnel do not have access to at least a summary of the contract
deficiency reports in Electronic Data Access, they cannot identify systemic issues
or issues applicable to a specific contract office. Although the contract deficiency
report module of Electronic Data Access does not have a management report
function, it does have a specific query function that allows information to be
gathered by data elements including, contract number, procurement contracting
office code, and administrative contract office code.

We request that SAF/AQ reconsider his position on both required procurement
contracting officer registration in Electronic Data Access and obtaining and
reviewing at least a summary of contract deficiency reports in Electronic Data
Access and provide comments in response to the final report.




                                      27
                  c. Perform periodic reviews to determine whether contracting officers
            monitor contractor vouchers, including interim vouchers, to determine
            whether the contractors and Defense Finance and Accounting Service
            personnel comply with contract payment instructions.

            Management Comments. SAF/AQC nonconcurred and stated that the
            recommendation was not needed as monitoring contract vouches is not a
            contracting officer responsibility. SAF/AQC cited DFARS Subpart 242.803 as
            support for his position.

            Audit Response. Management’s comments are nonresponsive. Because DFARS
            Subpart 242.803 gives authority to DCAA to act as a representative of the
            contracting officer for auditing and submission of interim vouchers, the
            contracting officer must have the original authority to perform this task. The
            DFARS does not relieve the contracting officer of the responsibility to audit and
            submit interim vouchers to the disbursing office. It merely extends the authority
            to the DCAA. The contracting officer is still ultimately responsible. In addition,
            DCAA does not ensure that the funds cited on interim vouchers comply with
            fiscal and appropriation law. We request that SAF/AQ reconsider his position
            and provide comments in response to the final report.

                  d. Establish guidance specifying the circumstances under which
            contracting officers are to request contract close-out audits.

            Management Comments. SAF/AQC concurred and stated that Air Force
            Materiel Command FAR Supplement Subpart 5304.804-5, “Procedures for
            Closing Out Contract Files,” includes the “MOCAS Contract Closeout Guide”
            dated December 2005, that clearly explains the roles and responsibilities in the
            close-out process. In addition, the Air Contracting Compliance Inspection
            Checklist, a quality assurance document under development, will include an item
            on including payment instructions in each contract for the disbursing office
            contract. SAF/AQC estimates that the new checklist will be issued on
            January 31, 2008.

            Audit Response. Although management concurred, the citation provided does not
            contain the requirements that address the recommendation. The cited guidance
            “MOCAS Contract Closeout Guide” specifies the duties of various agencies in
            contract closeouts, but it does not provide guidance to the administrative
            contracting officer on the circumstances that should trigger a request for a DCAA
            contract close-out audit.11 The DCAA contract close-out audit is in addition to
            the DCAA audit of allowable and allocable costs in the final voucher. We request
            that SAF/AQ reconsider his position and provide comments in response to the
            final report.


11
      The DCAA Contract Audit Manual refers to contract close-out audits as contract audit closing
     statements.




                                                           28
Appendix A. Scope and Methodology
   We conducted this performance audit from June 29, 2005 through May 21, 2007,
   in accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   The audit focused on selected incremental funding for Air Force RDT&E
   contracts involving 573600 appropriations. The incremental funds reviewed
   occurred from July 1, 2003, to June 30, 2004.

   We initially identified an audit universe of 7,242 contract modifications totaling
   $11.35 billion. We obtained the universe from the Washington Headquarters
   Service Individual Contracting Action Form (DD350) database. Of the
   7,242 contract modifications, the DoD OIG Quantitative Methods Directorate
   statistically selected 350 contract modifications totaling $6.96 billion. We
   screened these contract modifications to ensure that they contained Air Force
   RDT&E appropriations. We replaced contract modifications that contained
   appropriations other than the Air Force RDT&E appropriation as its funding
   source. This screening resulted in a final group of 305 contract modifications,
   valued at $4.94 billion, for further evaluation.

   We then:

      •   obtained the basic contracts for the selected transactions either from the
          Electronic Document Access database or from the appropriate contracting
          officers,

      •   obtained the individual contract modifications selected for review,

      •   reviewed 365 CLINs that were associated with the 305 contract
          modifications,

      •   evaluated whether the CLINs appeared to be severable or nonseverable
          and whether the Air Force properly formed them,

      •   reviewed the Statement of Work, Statement of Objectives, and other
          essential documents that described the work to be performed,

      •   discussed the contracts with the contracting officers,

      •   did not evaluate the severability of the basic contracts, but limited our
          severability determinations to the selected CLINs, and

      •   determined that 212 CLINs were nonseverable and 153 CLINs were
          severable.



                                        29
           Based on this analysis, we did further evaluations for 153 incrementally funded
           CLINs that were severable. These transactions had a total value of $1.55 billion.
           We focused on these 153 transactions because prior work in DoD IG Report No.
           D-2006-056, “Vendor Pay Disbursement Cycle, Air Force General Fund:
           Contract Formation and Funding,” March 6, 2006, indicated that severable
           contracting actions, especially those improperly formed as nonseverable,
           exhibited a greater chance of funding improprieties than those properly formed as
           nonseverable. We discontinued further detailed work on the remaining
           212 CLINs that Air Force had correctly formed as nonseverable.

           We did not project the results of our work to the universe of transactions for the
           period.

           We made site visits to the following locations:

               •   Aeronautical Systems Center, Wright-Patterson AFB;

               •   Air Force Research Laboratory, Wright-Patterson AFB;

               •   Space and Missile Systems Center, Los Angeles AFB;

               •   Electronic Systems Center, Hanscom AFB; and

               •   Air Force Research Laboratory-Electromagnetic Technology Division,
                   Sensors Directorate, Hanscom AFB.

           We also conducted audit work at DFAS Columbus and Dayton. Specifically, we
           obtained public vouchers and payment vouchers from DFAS locations.

           We were unable to evaluate fully all of the 153 severable CLINs primarily due to
           the lack of available information needed to match transaction documents. For
           example, we were unable to perform full analyses for transactions paid through
           the Integrated Accounts Payable System (IAPS) because this system uses the line
           of accounting to determine payment instead of using the CLIN/ACRN.1 We also
           found that contractors were not including information such as the period of
           performance on their billing statements, making it difficult to determine if the
           transaction violated the Bona Fide Needs Rule. Some billing statements
           contained no information with which to identify the funding source to use in
           making the payments.

           Use of Computer-Processed Data. Technical Support Center personnel
           obtained the audit universe from the DD350 database and provided to
           Quantitative Methods Directorate. We did not perform a formal reliability
           assessment of the computer-process data.

           Use of Technical Assistance. Quantitative Methods Directorate personnel
           assisted in the statistical analysis used to identify the incrementally funded
           transactions evaluated. In addition, the Inspector General DoD, Office of Legal

1
    CLIN information identifies the major segments of work performed on the contract, while ACRN
    information identifies the appropriations obligated for specific tasks under the CLIN.



                                                        30
    Counsel assisted in the review of the legality of the contracting actions and
    appropriations used to pay vendors.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    relates to the Defense Financial Management high-risk areas.


Prior Coverage
    The only prior coverage of the Air Force General Fund vendor pay disbursement
    cycle was a series of reports issued by the DoD OIG. However, these reports did
    not specifically address the management of incremental funding of Air Force
    RDT&E contracts.

    Report No. D2007-065, “Controls over the Prevalidation of DoD Commercial
    Payments,” March 2, 2007

    Report No. D-2007-059, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Financial Accounting,” February 9, 2007

    Report No. D-2007-027, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Payments to Vendors,” November 24, 2006

    Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Funds Control,” May 15, 2006

    Report No. D-2006-056, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Contract Formation and Funding,” March 6, 2006




                                         31
       Appendix B. Contract Line Item Numbers
                   Reviewed

                                                                                         Management                               Partial
Contracting   Contract/Delivery                                                                                Contract
                                        Modification          CLIN Reviewed             of Incremental                           Financial
  Office       Order Number                                                                                    Payments
                                                                                            Funding                              Analysis
                                            P00012                                                                                     11
               F0863703C6015                                  0001, 0003, 0004
  325                                       P00011                                                                                     11
CONS/CC                                                      0001, 0002, 0003,
               F0863703C6006                P00003                                                                                     11
                                                                   0006
   45         F0865099D0007/
                                               05                    1006                                           6
CONS/LGC         DO 0017
                                            P00057                   0035                                                              11
               F0863597C0002                                 0038, 0041, 0044,
                                            P00057                                                                                     11
                                                                0047, 0050
                                                             0007, 1001, 1002,
               F0863502C0034                P00007                                             1,2,3               5,6
AAC/PKZ                                                            1003
               F0863501C0102                P00017                 0001                       1, 2, 4              5,6
                                                             0006, 0008, 0009,
               F0863501C0002                P00035           0011, 0013, 0014,                                                         11
                                                             0022, 0034, 0035
               F0863500C0041                P00032                 0005                                                                11
AAC/YVK        F0862696C0002                P00171                 1027                                             6
                                            P00004                                                                                     11
                                            P00002                                                                                     11
                                            P00011                                                                                     11
               F4060003C0001                P00010                   0002                                                              11
AEDC/PKM
                                            P00008                                                                                     11
                                            P00006                                                                                     11
                                            P00016                                                                                     11
               F4060095C0016                P00383                   0004                                                              11
       Legend:
               Management of Incremental Funding
                           1--Services performed prior to funding availability.
                           2--Use of expired appropriations for subsequent year services.
                           3--Use of non-RDT&E appropriations.
                           4--Use of RDT&E appropriations in the second year.
               Contract Payments
                           5--Disbursement of expired appropriations for new services.
                           6--Payment instructions not in the contracts.
                           7--Incorrect adjustments to prior payments.
                           8--Improper application of vendor credit.
                           9--Inconsistency in application of payment prevalidation.
               Partial Financial Analysis
                           10--MIT--We initially selected 34 contracting actions from contract F19628-00-C-0002. However, we focused
                           our analysis on the 10 contracting actions that had largest funding values.
                           11--Contract paid out of IAPS. See Appendix D for details.
                           12--Withdrawal/Credits on contracts. See Appendix D for details.



                                                                        32
                                                                         Management                   Partial
 Contracting      Contract/Delivery                                                       Contract
                                         Modification   CLIN Reviewed   of Incremental               Financial
   Office          Order Number                                                          Payments*
                                                                           Funding*                  Analysis*

                                            P00056                                                      11
                                            P00071                                                      11
AFFTC/PKRB          F0461100C0001           P00062           1000                                       11
                                            P00075                                                      11
                                            P00064                                                      11
                   F3060202D0004/
AFRL/IFKRD                                     23            0001
                      DO 0001

AFRL/MLKH           F3361500C6060           P00012           0001                                       12

                   F3361597D5403/
                                               16            0001             2              5
                      DO 0023
AFRL/MLKM
                   F3361501D5801/
                                               03            0003
                      DO 0031
                   F3361502D2299/
 AFRL/PRKB                                     07            0001
                      DO 0007

                   F3361501D1822/
 AFRL/SNKE                                  000306           0001
                      DO 0003

 AFRL/SNKR         FA865004C1609            P00004           0001

                   F3365799D2051/
                                               01            0007                            6
                      DO 0011
                   F3365799D2051/
  ASC/LPK                                      03            0001                            6
                      DO 0012
                   F3365799D2051/
                                               08            0001
                      DO 0010
                   F3365700G4029/
 ASC/RWKR                                      33            0003
                      DO 0318
                                                         0701, 0702,
                                                         0703, 0704,
                   F3365701D0026/
  ASC/VFK                                   Mod 06       0707, 0709,                                    12
                      DO 0001
                                                         0710, 0711,
                                                         0715, 0716
                   F3365701D2000/
  ASC/YCK                                      03         0006, 0007
                      DO 0015
                   F3365799D0028/
  ASC/YSK                                   Mod 31           2000                            6
                      DO 0016
                                            P00020       0002, 0003,                                    12
                   F2960101C0242
                                            P00031          0004                                        12
                                            P00007                                                      12
Det 8 AFRL/PK      F2960103C0203                          0001, 0002
                                            P00009                                                      12
                   F2960199D0168/
                                               09            0001
                      DO 0027
                *See legend on page 32 for details.



                                                        33
                                                                                                      Partial
                                                                         Management
Contracting    Contract/Delivery                                                          Contract   Financial
                                     Modification   CLIN Reviewed       of Incremental
  Office        Order Number                                                             Payments*   Analysis
                                                                           Funding*
                                                                                                         *
                                        P00047        0001, 0003,
  Det 8         F2960101C0050
                                        P00045           0004
 AFRL/PK
                F2960102C0308           P00069           0001                                           12
                 GS35F4514G/                          0001, 0003,
 ESC/CXK                                P00006                                                          12
                F1962803F8043                            0004


                                                    0604, 0801, 1153,
                                                    1351, 1552, 1556,
                                                    2302, 2351, 2451,
                                                    4005, 4152, 4162,
                FA872104C0001           P00002      5051, 2352, 2353,                                   11
                                                    2354, 2453, 2454,
                                                    2455, 2456, 2457,
                                                    2458, 4170, 4171,
                                                          5052


                                        P00187                                                          10
                                        P00189                              1, 2, 4          7
                                        P00190                                                          10
                                        P00193                                                          10
                                        P00195                                                          10
                                        P00203                                                          10
 ESC/DIK                                P00204                                                          10
                                        P00206                              1, 3, 4          9
                                        P00207                                                          10
                                        P00208                                                          10
                                        P00210                                 4
                                        P00211           0001                                           10
                F1962800C0002
                                        P00220                                                          10
                                        P00222                                                          10
                                        P00223                             1, 2, 3, 4        9
                                        P00225                                 4
                                        P00234                                                          10
                                        P00235                                                          10
                                        P00236                                                          10
                                        P00244                              2, 3, 4
                                        P00245                               3, 4            9
                                        P00247                                                          10
                                        P00250                                                          10
                                        P00251                             1, 2, 3, 4        7
              *See legend on page 32 for details.



                                                          34
                                                                             Management                   Partial
Contracting       Contract/Delivery                                                           Contract
                                         Modification   CLIN Reviewed       of Incremental               Financial
  Office           Order Number                                                              Payments*
                                                                               Funding*                  Analysis*

                                            P00252                                                          10
                                            P00254                              1, 3, 4
                                            P00256                                                          10
                                            P00257                                                          10
                   F1962800C0002            P00263                                                          10
 ESC/DIK                                                      0001
                      (cont’d)              P00267                                                          10
                                            P00268                                                          10
                                            P00270                                                          10
                                            P00272                                                          10
                                            P00273                              1, 2, 4         8,9
                                            P00010                                                          12
                                                          '0005, 0006,
                                                        0014, 0015, 0017,
                    GS35F4668G/
                                                        0018, 0020, 0021,
                   F1962802F8197            P00016                                                          12
                                                        0023, 0024, 0032,
                                                        0033, 0150, 0151
 ESC/IYK

                    GS35F4712G/                         0002, 0003, 0011,
                                            P00014                                                          12
                   F1962802F8198                              0012
                    GS35F4668G/
                                            P00021            0002                2              5
                   F1962802F8200

                   F1962899D0001/                       1500, 1505, 1520,
  ESC/JSK                                         22                                                        12
                      DO 1005                              1525, 1534

                     GS35F4712G/
 ESC/NDK                                    P00019         0101, 0108                                       12
                    F1962802F8174
                   FA704600D0002/
                                                  28       0001, 0002                                       12
    HQ                 DO 0001
AFOTEC/RMC         FA704600D0002/
                                                  09          0001                               6
                      DO 0175
                   F4162497D5000/
                                                  23          0003                3
                       DO 17
 HSW/PKR
                   F4162497D6004
                                                  17          0001                4
                       DO 27
                                                            2001AG,
                                                            2002AG,
                   F3460102C0001            P00019          2003AG,                              6
                                                        2001AF, 2002AF,
OC-ALC/LKD                                                  2003AF
                   F3460100C0111            P00164      0402EA, 0403EA                           6
                   F3460103C0155            P00009           0005AC                             6
            *See legend on page 32 for details.



                                                        35
                                                                         Management                   Partial
Contracting     Contract/Delivery                                                         Contract
                                      Modification   CLIN Reviewed      of Incremental               Financial
  Office         Order Number                                                            Payments*
                                                                            Funds*                   Analysis*
                  GS35F4461G/
  SMC/MR                                 P00010        0001, 0002             1              6
                 F0470103F7043
SMC/PKJ Los
                 F0470101C0012           P00033      0010, 0013, 0017                                   12
Angeles AFB
                                         P00005                                                         11
                                         P00010                                                         11
                                         P00006                                                         11
                 FA880204C0001                            0001
                                         P00012                                                         11
                                         P00008                                                         11
                                         P00001                                                         11
SMC/PKR Los                              P00031                                                         11
                 F0470100C0009                            0005
 Angeles AFB                             P00032                                                         11
                 F0470100C8029           P00149        5501, 5551                                       12
                 F0470100C8028           P00114        0112, 0115            1, 4            6
                  GS35F0306J/
                                         P00001        0001, 0002                            6
                FA8802-04-F-7044
                  GS35F4825G/
                                         P00032           0004               1, 2           5,6
                F04701-01-F-7014
                 F0470195C0029           P00173                                                         12
SMC/PKS Los                                               3101
                 F0470195C0029           P00184                                                         12
Angeles AFB
                 F0470101C0001           P00158        0100, 1001
 SMC/PKU
                 F2960197C0018           P00019           0018                                          12
Kirtland AFB
               *See legend on page 32 for details.




                                                           36
Appendix C. Laws and Regulations

United States Code
    Subsection 2410 (a), title 10, United States Code [10 U.S.C. 2410 (a)], “Severable
    services contract for periods crossing fiscal years,” January 6, 2003:

           The Secretary of Defense, the Secretary of a military department, or the Secretary of
           Homeland Security with respect to the Coast Guard when it is not operating as a service
           in the Navy, may enter into a contract for procurement of severable services for a period
           that begins in one fiscal year and ends in the next fiscal year if (without regard to any
           option to extend the period of the contract) the contract period does not exceed one year.

    Subsection 1301 (a), title 31, United States Code [31 U.S.C. 1301 (a)],
    “Application,” January 6, 2003:

           Appropriations shall be applied only to the objects for which the appropriations were
           made except as otherwise provided by laws.

    Subsection 1301 (c), title 31, United States Code [31 U.S.C. 1301 (c)],
    “Application,” January 6, 2003:

           An appropriation in a regular, annual appropriation law may be construed to be
           permanent or available continuously only if the appropriation--expressly provides that it
           is available after the fiscal year covered by the law in which it appears.

    Subsection 1341 (a), title 31, United States Code [31 U.S.C. 1341 (a)],
    “Limitation on Expending and Obligating Amounts,” January 7, 2003:
           An officer or employee of the United States Government or of the District of Columbia
           government may not (a) make or authorize an expenditure or obligation exceeding an
           amount available in an appropriation or fund for the expenditure or obligation, or (b)
           involve either government in a contract or obligation for the payment of money before an
           appropriation is made unless authorized by law.

    Section 1342, title 31, United States Code (31 U.S.C. 1342), “Limitation on
    Voluntary Services,” January 6, 2003:

           An officer or employee of the United States Government or of the District of Columbia
           government may not accept voluntary services for either government or employ personal
           services exceeding that authorized by law except for emergencies involving the safety of
           human life or the protection of property.

    Subsection 1502 (a), title 31, United States Code [31 U.S.C. 1502 (a)], “Balance
    Available,” January 16, 2003:

           The balance of an appropriation of fund limited for obligation to a definite period is
           available only for payment of expenses properly incurred during the period of availability



                                             37
              or to complete contracts properly made within that period of availability and obligated
              consistent with section 1501 of this title. However, the appropriation or fund is not
              available for expenditure for a period beyond the period otherwise authorized by law.

     Subsection 3528 (a), title 31, United States Code [31 U.S.C. 3528 (a)],
     “Responsibilities and Relief from Liability of Certifying Officials,” January 6,
     2003:

              A certifying official is responsible for (1) information stated in the certificate, voucher,
              and supporting records; (2) the computation of certified voucher under this section and
              section 3325 of this title; (3) the legality of proposed payment under the appropriation or
              fund involved.

     Subsection 3325 (a), title 31, United States Code [31 U.S.C. 3325 (a)],
     “Vouchers,” January 6, 2003:

              A disbursing official in the executive branch of the United States Government shall (1)
              distribute money only as provided by a voucher certified by (A) the head of the executive
              agency concerned; or (B) an officer or employee of the executive agency having written
              authorization from the head of the agency to certify vouchers; (2) examine a voucher if
              necessary to decide if it is (A) in proper form; (B) certified and (C) computed correctly
              on the facts certified; (3) except for the correctness of computations on a voucher or
              pursuant to payment intercept or offsets pursuant to section 3716 or 3720A of this title,
              be held accountable for carrying out clauses (1) and (2) of this subsection.



Statement of Federal Financial Accounting Standard
     Statement of Federal Financial Accounting Standards No.1, version 5,
     “Accounting for Selected Assets and Liabilities,” March 30, 1993:

              Paragraph 74. Accounts payable are amounts owed by a federal entity for goods and
              services received from, progress in contract performance made by, and rent due to other
              entities.

              Paragraph 80. The reporting entity should disclose accounts payable not covered by
              budgetary resources.



Federal Acquisition Regulation
     FAR Subpart 1.602-2, “Contracting Officers, Responsibilities” September 28,
     2006:

     Contracting officers are responsible for ensuring performance of all necessary actions for effective
     contracting, ensuring compliance with the terms of the contract, and safeguarding the interests of
     the United States in its contractual relationships. In order to perform these responsibilities,
     contracting officers should be allowed wide latitude to exercise business judgment. Contracting
     officers shall --



                                                     38
       (a) Ensure that the requirements of 1.602-1(b) have been met, and that sufficient funds
       are available for obligation;

       (b) Ensure that contractors receive impartial, fair, and equitable treatment; and

       (c) Request and consider the advice of specialists in audit, law, engineering, information
       security, transportation, and other fields, as appropriate.
FAR Subpart 4.10, “Contract Line Items,” November 22, 2006:

       Contracts may identify the items or services to be acquired as separately identified line
       items. Contract line items should provide unit prices or lump sum prices for separately
       identifiable contract deliverables, and associated delivery schedules or performance
       periods. Line items may be further subdivided or stratified for administrative purposes.

FAR 52.232-22, “Limitation of Funds,” April 1984:

       (a) The parties estimate that performance of this contract will not cost the Government
       more than

                (1) the estimated cost specified in the Schedule or,

                (2) if this is a cost-sharing contract, the Government’s share of the estimated
                cost specified in the Schedule.

       The Contractor agrees to use its best efforts to perform the work specified in the
       Schedule and all obligations under this contract within the estimated cost, which, if this is
       a cost-sharing contract, includes both the Government’s and the Contractor’s share of the
       cost.

       (c) The Contractor shall notify the Contracting Officer in writing whenever it has reason
       to believe that the costs it expects to incur under this contract in the next 60 days, when
       added to all costs previously incurred, will exceed 75 percent of

                         (1) the total amount so far allotted to the contract by the Government
                         or,

                         (2) if this is a cost-sharing contract, the amount then allotted to the
                         contract by the Government plus the Contractor’s corresponding share.

       The notice shall state the estimated amount of additional funds required to continue
       performance for the period specified in the Schedule.

       (i) When and to the extent that the amount allotted by the Government to the contract is
       increased, any costs the Contractor incurs before the increase that are in excess of—(1)
       the amount previously allotted by the Government or (2) If the this is a cost-sharing
       contract, the amount previously allotted by the Government to the contract plus the
       Contractor’s corresponding share, shall be allowable to the same extent as if incurred
       afterward, unless the Contracting Officer issues a termination or other notice and directs
       that the increase is solely to cover termination or other specific expenses.




                                          39
Defense Federal Acquisition Regulation Supplement
    DFARS Subpart 204.7101 “Uniform Contract Line Item Numbering System,
    Definitions,” November 9, 1999:

          “Accounting classification reference number (ACRN)” means a two position alpha or
          alpha/numeric control code used as a method of relating the accounting classification
          citation to detailed line item information contained in the schedule

          “Nonseverable deliverable,” as used in this subpart, means a deliverable item that is a
          single end product or undertaking, entire in nature, that cannot be feasibly subdivided
          into discrete element or phases without losing its identity.

    DFARS Subpart 204.7107, “Uniform Contract Line Item Numbering System,
    Contract Accounting Classification Reference Number (ACRN),” November 9,
    1999:

          3) Payment instructions.

                  (i) When a contract line item is funded by multiple accounting classification
                  citations, the contracting officer shall provide adequate instructions in section G
                  (Contract Administration Data), under the heading “Payment Instructions for
                  Multiple Accounting Classification Citations,” to permit the paying office to
                  charge the accounting classification citations assigned to that contract line item
                  (see 204.7104-1(a)) in a manner that reflects the performance of work on the
                  contract. If additional accounting classification citations are subsequently added,
                  the payment instructions must be modified to include the additional accounting
                  classification citations.

                  (ii) Payment instructions shall provide a methodology for the paying office to
                  assign payments to the appropriate accounting classification citation(s), based
                  on anticipated contract work performance. The method established should be
                  consistent with the reasons for the establishment of the line items. The payment
                  method may be based upon a unique distribution profile devised to reflect how
                  the funds represented by each of the accounting classification citations support
                  contract performance. Payment methods that direct that payments be made from
                  the earliest available fiscal year funding sources, or that provide for proration
                  across accounting classification citations assigned to the line item, or a
                  combination thereof, may be used if that methodology reasonably reflects how
                  each of the accounting classification citations supports contract performance.




                                                40
DoD Regulation 7000.14-R Financial Management Regulation
    DoD FMR, volume 2A, chapter 1, paragraph 010213, “Research, Development,
    Test and Evaluation (RDT&E)-Definitions and Criteria,” June 2004:

           A. Definitions: The term “Research and Development (R&D)” is intended broadly to
           include the work performed by a government agency or by private individuals or
           organizations under a contractual or grant arrangement with the government. It includes
           R&D in all fields, including the physical sciences, engineering, etc.

           B. General Criteria When, after considering the following criteria, there is doubt as to the
           proper assignment of costs between appropriations, the issue should be resolved in favor
           of using RDT&E funding. In general, the types of costs to be financed by RDT&E and
           related appropriations are:

                    1. RDT&E Appropriation.

                             a. RDT&E will finance research, development, test and evaluation
                             efforts performed by contractors and government installations,
                             including procurement of end items, weapons, equipment, components,
                             materials and services required for development of equipment,
                             material, or computer application software; its Development Test and
                             Evaluation (DT&E); and its Operational Test and Evaluation (OT&E)
                             as provided for in paragraph C.5. (Test Articles and Test Support)
                             below.

                             b. The operation of R&D installations and activities engaged in the
                             conduct of R&D programs, including direct and indirect efforts,
                             expense and investment costs.

                             c. The acquisition or construction of industrial facilities costing less
                             than $750,000 at government owned, government operated facilities
                             under the criteria of DoD Directive 4275.5 as provided for under 10
                             U.S.C. 2805 (unspecified minor construction). Use of RDT&E funds
                             for acquisition and construction at contractor owned or contractor
                             operated facilities is authorized under 10 U.S.C. 2353, Contracts;
                             Acquisition, Construction or Furnishings of Test Facilities and
                             Equipment.

    DoD FMR, volume 2A, chapter 1, paragraph 010214 (A), “RDT&E-Incremental
    Programming and Budgeting Basis, Purpose,” June 2004, specifies the principles
    to be followed and establishes the criteria and definitions to be used in the
    preparation of the annual RDT&E budget estimates on an incrementally funded
    basis. The incremental budgeting policy provides that only those appropriations
    required for work in a given fiscal year shall be included in the RDT&E budget
    request for that fiscal year for most classes of effort.




                                              41
Air Force Regulations
    Air Force Instruction 65-601, volume 1, “Budget Guidance and Procedures,”
    Chapter 13- RDT&E Appropriation, March 3, 2005:

           Section 13.4. Limit reapplying of funds in the second year to cost growth within scope
           or to requirements which are a bona fide need of the appropriation year as defined by
           DFAS-DE Interim Guidance on Accounting for Obligations.

           Section 13.8.4. The RDT&E appropriation is legally available for up to 2 years for new
           obligations and you may incur obligations at any time during the 2 years, if the related
           action concerns an item authorized in the program authorization and budget authorization
           documents issued for the appropriation year.



Defense Finance and Accounting Service
    DFAS Columbus Policy 03-CP-01, “Direct Submission of Cost Reimbursement
    (SF1034/SF1035) Type Interim Vouchers,” March 12, 2004, provides that:

           All vouchers will be certified by a duly appointed DFAS certifying official prior to
           payment. Additionally, for sites using Electronic Document Management (EDI),
           authorization memoranda may be scanned into the contract folder for viewing purposes.

    DFAS Columbus Instruction 70001.7-I, “Policy No. 03-CP-02, Payment
    Prevalidation Instruction for Commercial Pay Business Line,” March 2003,
    requires all personnel managing DoD appropriations to conduct a prevalidation
    and receive positive response from applicable accounting offices prior to making
    payments.

    DFAS Columbus Desk Procedure 401, “Contract Entitlement, Processing a
    Manual Payment for BVNs,” June 1996, states:
           If an invoice does not contain a breakout of the amount to be paid by ACRN and/or
           country, then disbursement shall be prorated against all ACRNs unless specifically stated
           otherwise in the contract.




                                                 42
Appendix D. Other Matters of Interest
           IAPS Documents. We were unable to complete our analysis of 53 CLINs paid
           through IAPS. The complexity of the payment vouchers and the amount of time
           required to associate ACRNs1 with their respective LOAs was further
           complicated by the fact that the same LOA could be associated with more than
           one ACRN. Contracting officers establish CLINs for specific requirements and
           assign ACRNs to those CLINs. Thus, the CLIN/ACRN combination is vital to
           ensure that the appropriation disbursement parallels the specific work elements
           that contractors perform. Payment vouchers from IAPS frequently did not
           contain the data necessary to make the correct CLIN/ACRN associations.
           Instead, many contained only the LOA and purchase request numbers.

           Without the correct CLIN/ACRN associations, we could not complete the
           analysis of many IAPS samples within a reasonable amount of time. The MIT
           contract was paid through IAPS. However, we were able to complete the analysis
           of these samples because there was only one CLIN, even though the contract
           involved more than 300 projects.

           In January 2007, DFAS implemented new procedures to link systematically
           CLINs to their respective LOAs. According to DFAS personnel, the procedures
           will allow DFAS to control payments at the CLIN level. Because our sample
           universe of transactions occurred before the effective date of the new procedures,
           we did not verify whether the procedures would actually provide the data linkage
           needed.

           Withdrawal/Credits.2 A withdrawal/credit corrects or changes an ACRN after
           the original disbursement has occurred. These entries can occur months or even
           years after the original entries. It is time-consuming to match the corrections to
           the original CLINs/ACRNs. Of our selected contracts, 15 had extensive numbers
           of withdrawal/credits, some of which occurred outside of our target timeframe.
           Therefore, we did not conduct a detailed evaluation of those samples.




1
    An ACRN is an alphanumeric code that represents a specific LOA.
2
    The withdrawal/credit form is called the SF 1081, “Voucher and Schedule of Withdrawals and Credits.”



                                                    43
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
   Director Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service, Columbus
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                             44
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      45
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                              Final Report
                                               Reference




                                              Revised




                       47
Final Report
 Reference




Page 18




Page 18




Page 18




               48
     Final Report
      Reference




     Page 19




     Page 19




     Page 19




49
Final Report
 Reference




Page 20



Page 20




Page 20




Page 20




               50
     Final Report
      Reference




     Page 20




     Page 20




51
Assistant Secretary of the Air Force for
Acquisition Comments




                        52
53
54
55
56
Principal Deputy Assistant Secretary of the
Air Force for Financial Management and
Comptroller - Budget Comments




                       57
58
Deputy Assistant Secretary of the Air Force,
Financial Management and Comptroller -
Financial Operations Comments




                       59
Defense Finance and Accounting Service
Columbus Comments




                      60
61
62
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Services prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patty A. Marsh
James Hartman
Priscilla H. Nelms
John W. Barklage
Andrew E. Hornbrook
Hanh T. Nguyen
John Furutani
Romelia Ramirez
Cara M. Fox
William Lanyi
Kelly M. Olson
Michael T. Nishi
Erin Hart
Ann Thompson
